OIG Investigative Reports, Former Official with LAUSD Arrested in Fraud Scheme in which He Authorized Large Purchase of Book He Wrote
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE
August 8, 2008
www.usdoj.gov/usao/aln/
U.S. Department of Justice  UNITED
STATES ATTORNEY ALICE H. MARTIN
NORTHERN DISTRICT OF ALABAMA
CONTACT: KAREN NARAMORE
Telephone: (205) 244-2001
Fax: (205) 244-2171
Scottsboro Woman Sentenced to 30 Months for Role in Pell Grant Fraud
BIRMINGHAM, AL — WANDA BELL GAITHER, 58, of Scottsboro, Alabama, was sentenced
today by United States District Court Judge R. David Proctor to 30 months in
federal prison for her managerial role in a scheme that defrauded the United
States Department of Education of approximately $100,000.00. GAITHER was also
ordered to pay restitution in the amount of $107,527.00. The sentence is announced
today by United States Attorney Alice H. Martin and the U.S. Department of Education
Office of Inspector General.
GAITHER was the owner of Gaither and Company Beauty School in Scottsboro, where
the majority of students received Pell Grant awards to cover their tuition.
GAITHER pled guilty in April to participating in and directing her employees
to participate in a scheme in which Gaither and Company Beauty School submitted
falsified Pell Grant applications to obtain Pell Grant funds for which students
were not qualified.
"The Pell Grant program exists to help the neediest people in our society receive
higher education and vocational training that they otherwise could not afford.
When someone like Wanda Gaither steals from that program, she steals from those
people who truly need those education dollars," said Alice H. Martin, U.S. Attorney
for the Northern District of Alabama.
"I am proud of the work of OIG Special Agents and their commitment to protecting
the integrity of federal education funds," said Mary Mitchelson, Acting Inspector
General for the U.S. Department of Education. "We will continue to work with
our colleagues in law enforcement to aggressively pursue those who seek to defraud
federal education programs at the expense of our nation's students.
This case was investigated by Special Agents of the U.S. Department of Education
Office of Inspector General. Assistant United States Attorneys Melissa K. Atwood
and William C. Athanas and Trial Attorney Nicola Mrazek of the United States
Department of Justice Fraud Section prosecuted this matter on behalf of the
United States.
Top
Printable view
Share this page
Last Modified: 08/22/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov